February 24, 2010

ELLIS A. BURGOYNE
VICE PRESIDENT, SOUTHWEST AREA OPERATIONS

SUBJECT: Audit Report – Dallas Processing and Distribution Center Outgoing Mail
         Consolidation (Report Number NO-AR-10-003)

This report presents the results of our audit of the consolidation of the Dallas, TX
Processing and Distribution Center (P&DC) outgoing mail operation into the North
Texas P&DC (Project Number 09XG035NO000). The report responds to a
Congressional request. Our audit objective was to determine whether a business case
exists to support the consolidation of the Dallas P&DC’s outgoing mail operation into the
North Texas P&DC. This audit addresses operational risk. See Appendix A for
additional information about this audit.




                              Illustration 1: The Dallas P&DC
Dallas Processing and Distribution Center                                     NO-AR-10-003
 Outgoing Mail Consolidation


Conclusion

We concluded that a business case exists to support consolidating the Dallas P&DC’s
outgoing mail operation into the North Texas P&DC. Specifically, we found:

       Adequate capacity exists at the North Texas P&DC to process the increase in
        mail volume.

       Customer service should generally improve.

       Limited number of employees would be impacted.

       Efficiency should improve.

       Prior consolidation of the Dallas P&DC’s Saturday outgoing mail into the North
        Texas P&DC produced favorable results.

Opportunities exist to consolidate mail processing operations where plants are in a
close proximity to one another. As a result of this consolidation, the U.S. Postal Service
could save more than $11.9 million annually for a total economic impact of more than
$114 million over a 10-year period. See Appendix B for our detailed analysis of this
topic. See Appendix C for our monetary impact calculation.

We recommend the vice president, Southwest Area:

1. Consolidate the Dallas Processing and Distribution Center outgoing mail operation
   into the North Texas P&DC by no later than fiscal year 2011. This will result in an
   annual savings of $11,997,208 for a total economic impact of $114,041,172 over 10
   years.

2. Postmark outgoing letter mail cancelled at North Texas Processing and Distribution
   Center with a combined postmark.

3. Conduct training classes to inform employees of retirement benefits.

4. Hold meetings with employees to update them on the consolidation process as it
   moves forward.

Management’s Comments

Management agreed with the recommendations and is taking steps to consolidate the
Dallas P&DC outgoing mail operations into the North Texas P&DC. Management also
agreed to modify the postmark, conduct training on retirement benefits, and hold
meetings on the consolidation process. See Appendix D for management’s comments
in their entirety.



                                            2
Dallas Processing and Distribution Center                                  NO-AR-10-003
 Outgoing Mail Consolidation


Evaluation of Management’s Comments

The U.S Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Frank Neri
    William C. Rucker
    Sally K. Haring




                                            3
Dallas Processing and Distribution Center                                                       NO-AR-10-003
 Outgoing Mail Consolidation


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service is facing one of the most difficult challenges in its history. There has
been a continual decline in First-Class Mail® (FCM) volume over the past decade. This
has resulted in a decline in mail volume of more than 25 billion pieces during 2009,
resulting in a net loss of $3.8 billion.

Although the Postal Service has reduced expenses by nearly $6 billion in fiscal year
(FY) 2009, the expense reduction was not sufficient to fully offset the decline in mail
volume and rising cost of workers’ compensation and retirement costs. In testimony
before Congress,1 the U.S. Government Accountability Office (GAO) recommended that
urgent action was needed to streamline the mail processing and retail networks, as the
Postal Service no longer has sufficient revenue to cover the cost of maintaining its large
network of processing and retail facilities. Furthermore, the GAO stated it was
necessary for the Postal Service to consider whether it was cost-effective to retain
underutilized facilities and to take action to right size its network.

Title 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal and Accountability Enhancement Act, P.L.109-435-December 20,
2006, Title II, highlights “. . .the need for the Postal Service to increase its efficiency and
reduce its costs, including infrastructure costs, to help maintain high quality, affordable
postal services. . . .”

This audit report responds to a request from a Congressional Representative who
requested an independent review of the consolidation of outgoing mail processing
operations from the Dallas P&DC into North Texas P&DC. The Representative’s
concerns include the following:

       Employees would be unnecessarily transferred.
       Service could be disrupted.
       Requested that potential cost savings and efficiency methods be examined.
       Adequacy of public announcements, input at meetings, and public transparency.

From August through December 2009, the OIG assessed the efficiency of operations
performed at the Dallas and North Texas P&DCs.

The proposed consolidation would involve Dallas zones 751, 752, and 753 outgoing
(originating) mail processing moving to North Texas P&DC. The Dallas P&DC would
continue to process its destinating mail. There would be a transfer of approximately 286
1
 GAO-09-475T, Testimony before the Subcommittee on Federal Workforce, Postal Service, and the District of
Columbia, Committee on Oversight and Government Reform, House of Representatives, dated March 25, 2009.


                                                      4
Dallas Processing and Distribution Center                                   NO-AR-10-003
 Outgoing Mail Consolidation


million originating mailpieces, FCM, and Priority Mail® to the North Texas P&DC to
process.

The Dallas P&DC and North Texas P&DC are in the Dallas District in the Southwest
Area. (See Map.)

                 Map: Districts within the Postal Service Southwest Area




OBJECTIVE, SCOPE, AND METHODOLOGY

Our audit objective was to determine whether a business case exists to support the
consolidation of the outgoing mail processing operation from the Dallas P&DC into the
North Texas P&DC. We reviewed current and historical data for the Dallas and the
North Texas P&DCs. We evaluated current and potential efficiencies at both plants as
well as capacity at the North Texas P&DC. We estimated the costs and savings from
this analysis. Additionally, we conducted observations at both sites during the months
of October and November 2009 and interviewed Postal Service management and
employees.

We used computer processed data from the following systems:

       Enterprise Data Warehouse.
       Customer Satisfaction Measurement (CSM) System.

                                            5
  Dallas Processing and Distribution Center                                         NO-AR-10-003
   Outgoing Mail Consolidation



         Web Complement Information System.
         Activity Based Costing System.

  We conducted this performance audit from August 2009 through February 2010 in
  accordance with generally accepted government auditing standards and included such
  tests of internal controls as we considered necessary under the circumstances. Those
  standards require that we plan and perform the audit to obtain sufficient, appropriate
  evidence to provide a reasonable basis for our findings and conclusions based on our
  audit objective. We believe that the evidence obtained provides a reasonable basis for
  our findings and conclusions based on our audit objective. We discussed our
  observations and conclusions with management on December 3, 2009, and included
  their comments where appropriate.

  PRIOR AUDIT COVERAGE

                                          Final Report    Monetary
  Report Title       Report Number            Date         Impact            Report Results
Pasadena,            EN-AR-06-001          9/26/2006         N/A     The area Mail Processing
California                                                           proposal workhour cost
Processing and                                                       analysis was supported, and
Distribution                                                         OIG analyses provided
Center                                                               evidence for the consolidation
Consolidation                                                        of outgoing mail processing
                                                                     operations from the Pasadena
                                                                     P&DC to the Santa Clarita
                                                                     and Industry P&DCs, but
                                                                     Postal Service did not always
                                                                     comply with processes in
                                                                     Handbook PO-408.
                                                                     Management agreed with the
                                                                     recommendations.
Service              EN-AR-07-002             12/5/2006     N/A      The Postal Service could
Implications of                                                      improve how it documents
Area Mail                                                            service impacts, including
Processing                                                           service upgrades and
Consolidations                                                       downgrades in all classes of
                                                                     mail in AMP proposals and
                                                                     Post-Implementation Reviews.
                                                                     Management agreed with the
                                                                     recommendations.




                                                      6
  Dallas Processing and Distribution Center                                            NO-AR-10-003
   Outgoing Mail Consolidation



                                          Final Report    Monetary
  Report Title       Report Number            Date         Impact                Report Results
Timeliness of        NO-AR-07-001           2/9/2007         N/A        The audit confirmed that
Mail Processing                                                         during the period July 2005
at the Los                                                              through May 2006, the Los
Angeles,                                                                Angeles P&DC had difficulty
California,                                                             with the timely processing of
Processing and                                                          mail, resulting in mail delays
Distribution                                                            and service declines. The
Center                                                                  excessive amount of delayed
                                                                        mail was due to the influx of
                                                                        mail volume as a result of
                                                                        closing the Marina P&DC; the
                                                                        retrofitting of flat sorting
                                                                        machines, which caused a
                                                                        temporary increase in
                                                                        machine downtime; and
                                                                        deficiencies in processing
                                                                        Periodicals and Standard
                                                                        Mail. Management agreed
                                                                        with the recommendations.
Steubenville –       NO-AR-07-003             3/30/2007      N/A        Consolidating the Steubenville
Youngstown,                                                             Main Post Office’s outgoing
Ohio, Outgoing                                                          mail processing operation into
Mail                                                                    the Youngstown Processing
Consolidation                                                           and Distribution Facility
                                                                        (P&DF) achieved the desired
                                                                        results. Management agreed
                                                                        with our recommendations.
Efficiency           NO-AR-07-004             4/25/2007   $17 million   There was a favorable
Review of the                                                           business case to support
Bridgeport                                                              transferring Bridgeport
Connecticut,                                                            P&DF’s incoming mail
Processing and                                                          processing operation into the
Distribution                                                            Stamford P&DC. This audit
Facility                                                                recommended a savings of
                                                                        53,000 workhours as a result
                                                                        of the consolidation.
                                                                        Management agreed with our
                                                                        recommendations.




                                                      7
  Dallas Processing and Distribution Center                                         NO-AR-10-003
   Outgoing Mail Consolidation



                                          Final Report    Monetary
  Report Title       Report Number            Date         Impact             Report Results
Kansas City,         EN-AR-08-001          1/14/2008         N/A     The AMP proposal, supporting
Kansas                                                               documentation, and OIG
Processing and                                                       analyses provided confirming
Distribution                                                         evidence for the consolidation
Center                                                               of mail processing operations
Consolidation                                                        from the Kansas City, KS
                                                                     P&DC to the Kansas City, MO
                                                                     P&DC. However, OIG
                                                                     identified discrepancies in
                                                                     some costs and savings
                                                                     calculations, as well as
                                                                     transferred mail volume not
                                                                     documented, downgrades in
                                                                     some classes of mail and
                                                                     other potential risks.
                                                                     Management agreed with the
                                                                     recommendations.
Detroit,             EN-AR-08-005             7/17/2008     N/A      The Detroit AMP proposal
Michigan                                                             was generally accurate and
Processing and                                                       supported, reduced costs, and
Distribution                                                         increased operational
Center                                                               effectiveness. However, the
Consolidation                                                        OIG identified significant
                                                                     overstatement in proposed
                                                                     annual savings as well as
                                                                     issues with a potential service
                                                                     downgrade, the stakeholder
                                                                     communication process,
                                                                     legislative restrictions, and
                                                                     potential risk factors.
                                                                     Management agreed with the
                                                                     recommendations.
Canton               NO-AR-09-011             9/22/2009     N/A       Consolidating the Canton
Processing and                                                        P&DF’s outgoing mail
Distribution                                                          processing operation into the
Facility                                                              Akron P&DC was a prudent
Outgoing Mail                                                         business decision. No
Consolidation                                                         recommendations were
                                                                      necessary.




                                                      8
Dallas Processing and Distribution Center                                                       NO-AR-10-003
 Outgoing Mail Consolidation


                              APPENDIX B: DETAILED ANALYSIS

Capacity

Adequate capacity exists at the North Texas P&DC to process the increase in mail
volume received from the Dallas P&DC. Sufficient workroom and facility space exists at
the North Texas P&DC. For example:

       North Texas P&DC is almost double the size of the Dallas P&DC2 and has
        adequate floor space to process mail from the Dallas P&DC as well as to house
        additional equipment. See Illustration 2.

       North Texas P&DC has a large number of dock doors.3 Additional dock doors
        allow for efficient loading and unloading of mail trucks by minimizing wait time in
        the dock area. See Illustration 3.




                  Illustration 2: Adequate workspace exists at North Texas P&DC.




                  Illustration 3: North Texas P&DC has 122 dock doors. Additional dock
                  doors allow for more efficient dock operations and reduce congestion.



2
  North Texas P&DC has approximately 415,000 square feet and sits on 75 acres while the Dallas P&DC has
approximately 298,000 square feet and sits on 38 acres.
3
  North Texas P&DC has 122 dock doors versus only 91 dock doors at the Dallas P&DC.


                                                      9
Dallas Processing and Distribution Center                                                               NO-AR-10-003
 Outgoing Mail Consolidation


A minimal amount of the Dallas P&DC mail will be transferred. Only the outgoing mail
volumes will be transferred from the Dallas P&DC to the North Texas P&DC. This
volume totals approximately 286 million first-handling pieces4 (FHP) or about 17 percent
of the Dallas P&DC’s 2009 volume. The Dallas P&DC will continue to process all its
remaining mail, which constitutes 83 percent of its current mail volume.

The mail transferred from the Dallas P&DC will represent an 18-percent increase in
volume for the North Texas P&DC. However, because they experienced an 8 percent
volume decline between FYs 2008 and 2009 (or approximately 141 million FHP), the
net increase in mail volume at the North Texas P&DC would be about a 9 percent
volume increase or 145 million mailpieces over FY 2008 levels5. This additional mail
volume should pose no problems for North Texas P&DC because after efficiency gains,
new equipment gains and the additional staffing resulting from a consolidation, the
North Texas will have sufficient capacity to process the transferred outgoing mail
volume6

North Texas P&DC will have sufficient machine capacity, as a result of additional
equipment and existing machine idle time to process the Dallas P&DC outgoing mail
volume. For example:

        Four Advanced Facer Canceller Systems (AFCSs)7 will be added at the North
         Texas P&DC. This new equipment capacity coupled with existing AFCS idle time
         of 34 percent provides additional capacity of approximately 250 million letter
         mailpieces. This is more than enough capacity to cancel the additional 153
         million letters requiring cancelling through the AFCS machines8 that could result
         from the consolidation.

        The addition of two combined input/output subsystem (CIOSS) kits and two
         delivery barcode sorter with input/output subsystem (DIOSS) kits9 coupled with
         idle time of 27 and 32 percent, respectively, will provide additional capacity of
         approximately 641 million mailpieces. This is more than enough capacity to
         process the additional 381 million letters that would require processing through
         the CIOSS and DIOSS10 that could result from the consolidation.



4
  FHP is a letter, flat, or parcel that receives its initial distribution in a Postal Service facility.
5
  The Dallas P&DC mail volume of 286 million less the 141 million decline at the North Texas P&DC from FYs 2008
to 2009 is 145 million.
6
  Machine capacity analyzed using Total Pieces Handled, which is the number of handlings necessary to distribute
each piece of mail from the time of receipt to dispatch.
7
  Equipment used in the first step of mail processing to face, cancel, and separate the optical character-readable mail
and the pre-barcoded mail from the non-readable mail.
8
  This is the volume of letters processed through the Dallas P&DC’s AFCS machines for FY 2009.
9
  The CIOSS and DIOSS kits are enhancements to the Delivery Barcode Sorters that provide expanded processing
capability. These enhancements lift images from letters, allow more in-depth sortation and reduce secondary and
manual handlings.
10
   This is the volume of letters processed through the Dallas P&DC’s CIOSS and DIOSS for FY 2009. There is a
difference between 381 million and 153 million mailpieces, because not all mail has to be cancelled such as; metered
mail or permit imprint mail.


                                                          10
Dallas Processing and Distribution Center                                                                                NO-AR-10-003
 Outgoing Mail Consolidation



          One small parcel bundle sorter11 will be added at North Texas P&DC. This new
           equipment capacity, combined with existing idle time of 16 percent, will provide
           additional capacity of approximately 19 million parcels. This is more than enough
           capacity to process the additional 8 million parcels that are expected to be
           transferred with the consolidation.

Customer Service

Customer Service should generally improve from current standards. The North Texas
P&DC has generally higher and more consistent CSM and external first-class
measurement (EXFC) scores than the Dallas P&DC indicating that good management
processes to address customer service are in place. For example, for FY 2009:

          North Texas P&DC’s average CSM score was 91.5 percent as compared with
           the CSM average score of 89.5 percent for the Dallas P&DC.

          North Texas P&DC has generally had higher EXFC overnight scores.
           See Chart 1.


            Chart 1. FY 2009 Overnight Service Scores for Dallas
                          and North Texas P&DCs
                 97.50

                                                              Goal for Overnight Service is 96.5%
                 97.00



                 96.50



                 96.00



                 95.50



                 95.00



                 94.50
                              Gov Q1 2009                  Gov Q2 2009                  Gov Q3 2009               Gov Q4 2009



                               Dallas (TX) P&DC                 North Texas (TX) P&DC             National Goal
                               Linear (Dallas (TX) P&DC)        Linear (North Texas (TX) P&DC)




11
     Small Parcel Bundle Sorter is a machine that sorts bundled letters, bundled flats, and small parcels.


                                                                   11
Dallas Processing and Distribution Center                                                                  NO-AR-10-003
 Outgoing Mail Consolidation


In addition, the North Texas P&DC is located within 3 miles of the Dallas/Fort Worth
Airport as opposed to the Dallas P&DC, which is 18 miles away from the airport. Closer
proximity to the airport allows for more reliability with meeting airline dispatches12 and
reduces the time necessary to transport the mail to the airport thereby increasing the
operational window. This should result in improved service scores.

Service standards for FCM and Priority Mail will not be impacted. The consolidation will
have offsets in service standards for Periodicals, Standard Mail, and Package Services
with 27 upgrades and 27 downgrades. Table 1 shows the specific service impacts by
mail class.

           Table 1: Upgrades/Downgrades in Service Standards by Mail Class

                       3-Digit ZIP Code Pair
                                                                 Upgrades          Downgrades
                     Service Standard Impacts
                                    FCM                               0                     0

                                Priority Mail                         0                     0

                                Periodicals                           3                     9

                              Standard Mail                          21                     9

                           Package Services                           3                     9

We also concluded that service at mail acceptance units including retail window
operations will not be affected. For example, the Retail and Bulk Mail Acceptance unit
will remain open at their normal business hours at the Dallas P&DC. Mail box collection
times also will not be affected by the consolidation.

To maintain the identity of stamped mail inducted in the Dallas ZIP Codes and enhance
community support, we recommend a combined postmark showing Dallas and North
Texas. The potential adverse revenue resulting from a loss of goodwill is estimated at
$674,000. (See Appendix C.) Illustration 4 shows an example of a combined postmark
used as a result of a previous consolidation at Akron and Canton, OH:




12
   Being within 3 miles rather than 18 miles of the airport significantly reduces the risk of transportation delays due to
traffic and vehicle breakdowns thereby increasing the reliability of meeting airline dispatches.


                                                            12
Dallas Processing and Distribution Center                                                    NO-AR-10-003
 Outgoing Mail Consolidation




         Illustration 4:
 Mail processed at the North
 Texas P&DC could receive a
 new postmark similar to the
joint Akron-Canton Postmark.




Employee Impact

The consolidation of Dallas P&DC’s outgoing mail into the North Texas P&DC will have
a limited impact on employees. Specifically:

          No career employees will lose their jobs at either location.

          The net effect of the consolidation on staffing would be an approximate reduction
           of 10 positions with the Dallas P&DC needing to reduce 167 positions,13 while
           North Texas P&DC increasing positions by 157.

If the consolidation takes place, management needs to conduct training and hold
meetings with employees to ensure a smooth transition.

Efficiency

Efficiency should improve as a result of the consolidation. The North Texas P&DC is
more efficient and processes its mail volumes at a lower cost than its Dallas
counterpart. For example, in FY 2009:

          North Texas P&DC productivity was 822 pieces per workhour as compared with
           Dallas P&DC productivity of 745 pieces per workhour. This indicates that North
           Texas P&DC processes 10 percent more mailpieces per hour than its Dallas
           P&DC counterpart. See Chart 2.

          Processing costs at the North Texas P&DC is lower than the processing costs at
           the Dallas P&DC. It costs $83.57 to process 1,000 mailpieces at North Texas
           P&DC as compared with $93.90 to process the same amount of mail at the
           Dallas P&DC.



13
     Reflects 150 employees at the Dallas P&DC that already took the retirement incentive.


                                                           13
Dallas Processing and Distribution Center                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                               NO-AR-10-003
 Outgoing Mail Consolidation




                                                                                                                 Chart 2. Group 1 Plants First Handling Piece
                                                                                                                                Productivity
                                                                                                                                   FY 2009
     1,600                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              Out of 37 Group 1 Plants, North Texas 
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        P&DC is ranked 21st lowest in  
     1,400
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        productivity and Dallas P&DC is ranked 
     1,200                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              28th lowest in productivity. Both are 
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        below the national average of 850 for  
     1,000                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                              productivity.

         800

         600

         400

         200

          0
                Phoenix + North Valley + East Valley + Rio …




                                                                                                                                                         MINNEAPOLIS P&DC




                                                                                                                                                                                                                                                                                                                                                                    HOUSTON P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                   MILWAUKEE P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                        CINCINNATI P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                      DETROIT P&DC
                                                                                                                                                                                                                                                  TAMPA P&DC




                                                                                                                                                                                                                                                                                                                                                                                                   PALATINE P&DC


                                                                                                                                                                                                                                                                                                                                                                                                                                    St. Louis + Annex




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                 OAKLAND P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     SAN FRANCISCO P&DC
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           PHILADELPHIA P&DC‐1
                                                                                                                                                                                                      MID‐ISLAND P&DC




                                                                                                                                                                                                                                                                                                                                        COLUMBUS P&DC
                                                                                                                                                                                                                                                                                                                                                        KCMO P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             DVD BLDG P&DC
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             QUEENS P&DC
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                           Indy + Bloomington + Annex




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                    CLEVELAND P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          Chicago + Metro STc
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                NEW YORK MORGAN P&DC
                                                                                                                                                                                                                                                               NORTH METRO


                                                                                                                                                                                                                                                                                              M Sellers + Midway
                                                                                              Seattle + East + South + South Sound




                                                                                                                                                                                                                        Sacramento + Royal Oaks
                                                               Portland + Mt. Hood + Sunset


                                                                                                                                     CAROL STREAM P&DC


                                                                                                                                                                            MICHIGAN METROPLEX P&DC




                                                                                                                                                                                                                                                                             SANTA ANA P&DC


                                                                                                                                                                                                                                                                                                                   SANTA CLARITA P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                        NORTH TEXAS P&DC
                                                                                                                                                                                                                                                                                                                                                                                                                                                                           PITTSBURGH P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                          LOS ANGELES P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                     Denver + Annex
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                Balt. P&DC + P&DF
                                                                                                                                                                                                                                                                                                                                                                                   FT WORTH P&DC




                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                             DALLAS P&DC
In addition, the consolidation provides an opportunity to require efficiency improvements
at both plants. For example, the North Texas P&DC should increase its workhours by
274,243, an increase of 14 percent, to process the increase in mail volume being
transferred from Dallas of 18 percent. This hour increase would allow the North Texas
P&DC to improve to the median productivity level for similar size plants.14 In addition,
the Dallas P&DC’s workhour reduction of 554,617 hours would allow this facility to
achieve the same productivity currently being achieved by North Texas P&DC.15

Saturday Effect

On March 21, 2009, outgoing Saturday mail volume was transferred from the Dallas
P&DC to the North Texas P&DC and produced favorable results. Specifically:

              Productivity at both plants improved on Saturday. For example, the Dallas
               P&DC’s productivity improved from 960 to 1,164 mailpieces per hour, while North
               Texas P&DC improved from 954 to 1,099 mailpieces per hour.

              Comparing the 6-month period before the consolidation with the 6-month period
               after the consolidation, the North Texas P&DC reduced its workhours by 8,003,


14
   Similar size sites are shown in Chart 2.
15
   Requiring the Dallas P&DC to achieve the same productivity as North Texas’s current productivity level of 822
rather than the median level of 850 is more attainable during the transition.


                                                                                                                                                                                                                                                                                                                                                                                           14
Dallas Processing and Distribution Center                                       NO-AR-10-003
 Outgoing Mail Consolidation


        despite the volume increase of 6.7 million pieces or 7 percent. Similarly, the
        Dallas P&DC reduced its workhours by 30,264.

       Originating service scores for both locations improved.

Cost Savings

The cost savings from the consolidation will primarily be the result of workhour
reductions. North Texas P&DC would increase its workhours by 274,243, while the
Dallas P&DC would reduce its workhours by 554,617, a net of 280,374 workhours.
Table 3 shows the annual cost savings of $11,997,208 from the consolidation taking
into account workhours, maintenance, transportation, and equipment costs.

                                 Table 3: Annual Cost Savings

                Workhour Savings (280,374 workhours)              $13,682,251

                Maintenance Savings (Annual)                         299,029

                Total Savings                                     $13,981,280


                Less:
                                                                      29,230
                Transportation Cost Increase (Annual)
                Equipment Cost (One time)                           1,954,842

                Total Cost                                         $1,984,072

                Net Savings                                       $11,997,208

Cost savings are based on the following:

       The consolidation would produce a net workhour savings of 280,374 workhours
        or $13,682,251.

       Maintenance savings totaled $299,029, after an adjusted cost of $12,611 for
        additional labor at the North Texas P&DC and a savings of $311,640 at the
        Dallas P&DC for maintenance parts, supplies, and utilities.

       Transportation routes and schedules would need to be adjusted and would
        require seven additional Postal Service vehicle routes at a total annual cost of
        $29,230 to transport mail directly from the northern Dallas stations to the North
        Texas P&DC.



                                              15
Dallas Processing and Distribution Center                                    NO-AR-10-003
 Outgoing Mail Consolidation



       One-time equipment costs will be $1,954,842, which include high-cost tray sorter,
        tray de-palletizer, and equipment movement costs.




                                            16
Dallas Processing and Distribution Center                                                                NO-AR-10-003
 Outgoing Mail Consolidation


                APPENDIX C: MONETARY AND NON-MONETARY IMPACTS

                                               Monetary Impacts

                      Finding                         Impact Category                       Amount
             Efficiency of Mail                     Funds Put to Better
                                                                                        $114,041,172
             Processing Operations                  Use16


NOTE:

We calculated cost avoidance using the net workhour savings of 280,374 multiplied by
the escalated labor rate of 1.3 percent and a discount rate of 3.5 percent over a 10-year
period. This calculation also includes increased transportation costs, decreased
maintenance costs, and an additional one-time equipment cost. (Table 3 in the
previous section shows the detailed savings and cost.)

                                           Non-Monetary Impacts

                    Finding                             Impact Category                       Amount
            Customer Service –                      Goodwill/Branding17                         N/A
            Postmark Preservation                   Revenue at Risk18                        $674,00019


NOTE:

This non-monetary impact is based on the Dallas P&DC’s cancellations of over
153 million letter mailpieces for FY 2009 multiplied by the single piece FCM letter rate of
44 cents. We estimated that this amount of revenue would be at risk due to lost
goodwill should the Dallas, TX, postmark be abolished.




16
   Funds that could be used more efficiently by implementing recommended actions.
17
   Goodwill/Branding is an actual or potential event or problem that could harm the reputation of the Postal Service.
18
   Revenue at risk is the dollar value of revenue at risk and the quantity is the revenue associated with the mail class
for 1 year.
19
   153,154,330 pieces of FCM letters were cancelled at the Dallas P&DC during FY 2009. One percent of the
revenue from this volume is approximately $674,000 (153,154,330 x $0.44 x 1 percent.)


                                                           17
Dallas Processing and Distribution Center                  NO-AR-10-003
 Outgoing Mail Consolidation


                         APPENDIX D: MANAGEMENT COMMENTS




                                            18
